                  U.S. Department of Agriculture

                     Office of Inspector General
                              Southwest Region




         Audit Report


      Farm Service Agency
Nonrecourse Marketing Assistance
       Farm-Stored Loans




                       Audit Report 03601-47-Te
                               September 2006
                   UNITED STATES DEPARTMENT OF AGRICULTURE

                                   OFFICE OF INSPECTOR GENERAL


                                        Washington, D.C. 20250




September 13, 2006


REPLY TO
ATTN OF:       03601-47-Te

TO:            Teresa C. Lasseter
               Administrator
               Farm Service Agency

ATTN:          T. Mike McCann
               Director
               Operations Review and Analysis Staff

FROM:          Robert W. Young /s/
               Assistant Inspector General for Audit

SUBJECT:       Farm Service Agency Nonrecourse Marketing Assistance Farm-Stored Loans


This report presents the results of the subject audit. Your response to the official draft report,
dated August 4, 2006, is included in its entirety as exhibit E with excerpts and the Office of
Inspector General’s (OIG) position incorporated into the Findings and Recommendations section
of the report. Your response contained sufficient justification to reach management decisions on
Recommendations 1, 5, 6, 8, 9, 10, 12, and 15. Please follow Departmental and your internal
agency procedures in forwarding final-action correspondence to the Director, Planning and
Accountability Division, Office of the Chief Financial Officer.

Based on the response, management decisions have not been reached for Recommendations 2, 3,
4, 7, 11, 13, 14, and 16. The information needed to reach management decisions is set forth in
the OIG Position section after each recommendation. In accordance with Departmental
Regulation 1720-1, please furnish a reply within 60 days describing the corrective actions taken
or planned and the timeframes for implementation for those recommendations for which a
management decision has not yet been reached. Please note that the regulation requires a
management decision be reached for all recommendations within a maximum of 6 months from
the date of report issuance. Final action on the management decisions should be completed
within 1 year of the date of the management decisions to preclude being listed in the
Department’s annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during the
audit.
Executive Summary
Farm Service Agency Nonrecourse Marketing Assistance Farm-Stored Loans
(Audit Report 03601-47-Te)

Results in Brief                    Administered by the Commodity Credit Corporation (CCC) and operated by
                                    the Farm Service Agency (FSA), marketing assistance loans help farmers
                                    store their crops at harvest when prices are low and then sell them later at
                                    more advantageous prices. The Office of Inspector General (OIG) initiated
                                    this audit to determine if FSA had adequate controls over nonrecourse 1
                                    marketing assistance loans that are stored on producers’ farms. Because FSA
                                    anticipated disruptions in the transportation of commodities to Gulf Coast
                                    ports in the wake of Hurricanes Katrina and Rita, the agency authorized
                                    producers to store crops used as collateral for marketing assistance loans
                                    on-ground. 2 OIG included a review of FSA’s controls for ensuring the value
                                    of collateral stored on-ground in this audit.

                                    The 7 States included in our review had 11,685 outstanding nonrecourse
                                    marketing assistance loans for crop year 2005. We reviewed 121 loans, or
                                    nearly $17.8 million of the $554 million in total loans. 3 Our sample
                                    included 22 nonrecourse marketing assistance loans with collateral stored
                                    on-ground. Based on our review of this sample of 121 loans, we concluded
                                    that FSA’s controls over these loans were, generally speaking, adequate, but
                                    that the agency could nonetheless improve its controls over how it secures
                                    this collateral.

                                    We identified two problems. First, FSA’s procedures were not always clear
                                    enough to ensure that county offices handled marketing assistance loans
                                    correctly and consistently. Second, even when procedures were clear, county
                                    offices did not always comply with them. We identified $2.2 million in
                                    questionable costs that resulted from these two problems (see exhibit A).

                                    FSA Should Clarify its Procedures for Farm-Stored Marketing Assistance
                                    Loans

                                    Due to ambiguities in FSA’s procedures for administering marketing
                                    assistance loans, we found that county offices did not always handle these
                                    loans consistently and correctly. When low-quality, high-moisture crops are
                                    used as collateral for marketing assistance loans, FSA requires that the value
                                    of the collateral be reduced accordingly; however, because the handbooks
                                    establishing these guidelines were confusing and, in places, contradictory,

1
  Nonrecourse loans are those for which the producer may deliver the pledged collateral to CCC as full payment of the loan at maturity. Recourse loans
must be repaid by cash, including principal and charges plus interest.
2
  Notice LP-2002, “CCC Authorizes On-Ground Farm Storage for Marketing Assistance Loans and Loan Deficiency Payments for Crop Years 2005 and
2006,” dated September 8, 2005.
3
  Arizona, Arkansas, Illinois, Indiana, Iowa, Kansas, and Montana.

USDA/OIG-A/03601-47-Te                                                                                                                       Page i
                   two of the seven States reviewed did not apply them correctly. This occurred
                   because FSA allowed State committees to establish their own maximum
                   acceptable moisture levels for commodities, but did not monitor the
                   State-established levels to ensure that they were consistent and reasonable.
                   As a result, these 2 States overstated the value of collateral for 16 loans by
                   nearly $1.6 million. Furthermore, the widely varying maximum acceptable
                   moisture levels set by State offices nationwide may result in the inequitable
                   treatment of producers.

                   Since FSA’s procedures allow county committees the discretion to determine
                   if they will use commodity loan seals (a document used to identify bins of
                   commodities as collateral for loans), we found that county offices did not use
                   these seals consistently—3 of 16 counties did not use them at all. To ensure
                   consistency, we concluded that FSA should either prescribe that seals be used
                   for all marketing assistance loans, or specify under what circumstances they
                   should be used.

                   FSA County Offices Did Not Always Comply with FSA’s Procedures for
                   Issuing and Administering Farm-Stored Loans

                   When issuing and administering farm-stored marketing assistance loans,
                   county offices did not always comply with FSA’s procedures. Of 16 county
                   offices, 7 did not always perform required spot checks of commodities used
                   as collateral to secure loans. While the availability of sufficient personnel
                   was a problem in four county offices, we found that three county offices had
                   not implemented the spot-check control as written. Since the marketing
                   assistance loan program allows producers to self-certify their collateral, FSA
                   lacks assurance that collateral is sufficient if these spot checks are not
                   performed.

                   Of 16 county offices, we also found that 10 did not complete required loan
                   documents when processing applications for marketing assistance loans. This
                   occurred because the second-party review process FSA has established to
                   review these applications is not designed to detect these errors; moreover, we
                   found that 14 of 16 county offices did not perform these second-party
                   reviews at all. Without completing required spot checks, loan documents, and
                   second-party reviews, FSA lacks assurance that marketing assistance loans
                   are being processed in compliance with all applicable laws, regulations, and
                   procedures.

                   Finally, we noted that the Pinal County FSA Office in Arizona made a
                   number of errors when administering marketing assistance loans to a
                   cooperative marketing association, including mistakenly issuing premiums
                   for collateral, issuing loans for collateral stored in an ineligible structure, and
                   failing to provide the cooperative marketing association with critical loan
                   documentation. Because county and State officials were unfamiliar with
USDA/OIG-A/03601-47-Te                                                                        Page ii
                                      FSA’s procedures concerning cooperative marketing associations, the Pinal
                                      County Office issued $603,431 in questionable loans 4 to this cooperative
                                      marketing association.

                                      We concluded that, by clarifying its procedures and ensuring that its county
                                      offices comply with those procedures, FSA can improve its controls over the
                                      marketing assistance loan program and obtain greater assurance that
                                      sufficient collateral exists to secure these loans.

                                      Our audit also was conducted in conjunction with the President’s Council on
                                      Integrity and Efficiency as part of its examination of relief efforts provided
                                      by the Federal Government in the aftermath of Hurricanes Katrina and Rita.
                                      As such, a copy of the report has been forwarded to the President’s Council
                                      on Integrity and Efficiency, Homeland Security Working Group, which is
                                      coordinating Inspectors’ General reviews of this important subject.

Recommendations
In Brief                              FSA should clarify its procedures for reducing the value of low-quality,
                                      high-moisture commodities used as collateral for marketing assistance loans,
                                      as well as its procedures specifying when county offices should use
                                      commodity loan seals. FSA needs to determine those States which had a
                                      policy of not reducing the loan values due to low-quality, high-moisture
                                      commodities and to instruct those States to determine the potentially
                                      overstated value of the collateral and to take appropriate corrective actions.

                                      FSA should take steps to strengthen its system for performing spot checks of
                                      loan collateral, and for completing and reviewing marketing assistance loan
                                      documents.

                                      Finally, FSA should provide training to the Arizona State and county offices
                                      regarding the marketing assistance farm-stored loan program.

Agency Response                       In a letter dated August 4, 2006, FSA generally concurred with the findings
                                      and recommendations and provided proposed corrective actions. FSA’s
                                      written response is included as exhibit E of the report.

OIG Position                          We generally concur with FSA’s response and accept the management
                                      decisions for 8 of 16 recommendations. We have explained in the Findings
                                      and Recommendations section of the report the actions FSA needs to take for
                                      acceptance of management decisions on the remaining recommendations.




4
    $120,425 + $483,006 = $603,431.

USDA/OIG-A/03601-47-Te                                                                                      Page iii
Abbreviations Used in This Report


CCC                 Commodity Credit Corporation
FSA                 Farm Service Agency
OIG                 Office of Inspector General
OCFO/PAD            Office of the Chief Financial Officer,
                      Director, Planning and Accountability Division
USDA                U.S. Department of Agriculture




USDA/OIG-A/03601-47-Te                                                 Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objective .................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1. FSA’s Procedures for Farm-Stored Loans Need Clarification ................................... 4

        Finding 1             FSA Did Not Correctly Apply Moisture Regulations ............................................. 4
                                 Recommendation 1 .......................................................................................... 8
                                 Recommendation 2 .......................................................................................... 9
                                 Recommendation 3 .......................................................................................... 9
                                 Recommendation 4 ........................................................................................ 11
        Finding 2             FSA Did Not Consistently Identify Collateral with Commodity Loan Seals ....... 11
                                 Recommendation 5 ........................................................................................ 12
                                 Recommendation 6 ........................................................................................ 13

    Section 2. FSA County Offices Did Not Always Comply with FSA’s Procedures for Issuing
                 and Administering Farm-Stored Loans ................................................................. 14

        Finding 3             FSA County Offices Did Not Always Perform Spot Checks of Collateral for
                              Farm-Stored Loans ................................................................................................ 15
                                   Recommendation 7 ........................................................................................ 18
                                   Recommendation 8 ........................................................................................ 18
                                   Recommendation 9 ........................................................................................ 19
                                   Recommendation 10 ...................................................................................... 19
        Finding 4             County Offices Did Not Always Follow FSA’s Administrative Procedures........ 20
                                   Recommendation 11 ...................................................................................... 22
                                   Recommendation 12 ...................................................................................... 22
        Finding 5             The FSA Office in Pinal County, Arizona, Did Not Follow Procedures for
                              Issuing and Administering Loans to a Cooperative Marketing Association......... 23
                                   Recommendation 13 ...................................................................................... 27
                                   Recommendation 14 ...................................................................................... 28
                                   Recommendation 15 ...................................................................................... 28
                                   Recommendation 16 ...................................................................................... 29

Scope and Methodology........................................................................................................................ 30

Exhibit A – Summary of Monetary Results ....................................................................................... 32
Exhibit B – List of Sites Visited ........................................................................................................... 33

USDA/OIG-A/03601-47-Te                                                                                                                    Page v
Exhibit C – Summary of Loans Reviewed.......................................................................................... 34
Exhibit D – Summary of State-Established Maximum Acceptable Moisture Levels..................... 35
Exhibit E – Agency Response............................................................................................................... 36




USDA/OIG-A/03601-47-Te                                                                                                            Page vi
Background and Objective
Background                             Administered by the Commodity Credit Corporation (CCC) and operated by
                                       the Farm Service Agency (FSA), marketing assistance loans provide interim
                                       financing to meet producers’ needs so that they are not obliged to sell their
                                       commodities when market prices are low. Allowing producers to store crops
                                       at harvest also facilitates the orderly marketing of commodities throughout
                                       the year. FSA issues two types of marketing assistance loans—those secured
                                       with collateral stored in warehouses and those secured with collateral stored
                                       on producers’ farms.

                                       To qualify for a farm-stored loan, growers must produce an eligible
                                       commodity 5 and meet certain requirements. 6 They must comply with
                                       conservation and wetland protection requirements, report how they use their
                                       cropland acreage on the farm, have beneficial interest in the commodity at
                                       the time of the loan and retain that beneficial interest throughout the loan
                                       period, and ensure that the commodities meet CCC minimum-grade and
                                       quality standards.

                                       Recourse and Nonrecourse Loans

                                       Marketing assistance loans are described as “nonrecourse” because the
                                       commodity is pledged as collateral, and producers may deliver the pledged
                                       collateral to CCC as full payment of the loan at maturity. If the commodity
                                       is not eligible for a nonrecourse loan, then producers may receive recourse
                                       loans for which loan collateral cannot be forfeited as payment of the loan at
                                       maturity. Recourse loans must be repaid by cash, including principal and
                                       charges plus interest.

                                       Low-Quality, High-Moisture Commodities

                                       Throughout the life of a marketing assistance loan, producers are required to
                                       maintain certain quality standards for commodities pledged as collateral.
                                       These standards are established by the Grain Inspection Packers and
                                       Stockyards Administration and published in FSA Handbook 2-LP Grains
                                       and Oilseeds (Revision 1). 7 For each eligible commodity, FSA Handbook
                                       2-LP Grains and Oilseeds (Revision 1), establishes standard weight
                                       measured in pounds per bushel, and moisture standards in percent of
                                       moisture. Commodities found to have moisture in excess of this standard are
                                       considered low quality and classified as containing excess moisture.
                                       High-moisture commodities must have a shrink factor applied to adjust their


5
  FSA Handbook 8-LP (Revision 1), “Marketing Assistance Loans and Loan Deficiency Payments for 2002 and Subsequent Crop Years,” as amended,
states barley, corn, grain sorghum, oats, canola, peanuts, soybeans, oilseeds, wheat, dry peas, lentils, small chickpeas, rice, and other crops designated by
CCC are eligible commodities.
6
  The amount of the marketing assistance loan is equal to the loan rate per unit multiplied by the quantity pledged as collateral.
7
  FSA Handbook 2-LP Grains and Oilseeds (Revision 1), “Commodity Data Specific to Wheat, Feed Grains, and Oilseeds,” as amended.

USDA/OIG-A/03601-47-Te                                                                                                                            Page 1
                    quantity, and the value of these commodities must be reduced to 20 percent
                    of their original value to adjust their quality.

                    Commodity Seals

                    FSA allows county offices the option of requiring producers to identify
                    commodities held as collateral with FSA Form CCC-683, “Commodity Loan
                    Seal.” This seal provides county offices with a means of identifying specific
                    collateral that secures particular loans. Seals are a useful reminder to
                    producers that the U.S. Department of Agriculture (USDA) needs to be
                    notified before they move the commodity, and the seals also help commodity
                    inspectors identify collateral during spot checks.

                    Spot Checks

                    Although producers are responsible for maintaining the quality and quantity
                    of commodities used as collateral throughout the loan period,
                    FSA representatives verify through spot checks that the quality and quantity
                    of farm-stored commodities pledged as collateral is maintained. Outstanding
                    loans are selected for spot checks through an automated random selection
                    process.

                    County commodity inspectors performing spot checks are required to verify
                    that: the commodity is in existence and in storable condition; the storage
                    structure will safely store and protect the commodity from natural elements;
                    the commodity is stored in approved bags; the commodity is properly
                    labeled; commodity loan seals are attached as required; loan collateral is
                    properly identified; CCC’s interest is adequately protected; and the quantity
                    is reasonable based on a maximum eligible quantity.

                    Cooperative Marketing Associations

                    In addition to producers, cooperatives may apply for farm-stored loans.
                    Before cooperatives may participate, they must apply for cooperative
                    marketing association status. Once cooperatives achieve cooperative
                    marketing association status, they are treated the same as any other eligible
                    producer; the cooperatives may apply for loans on behalf of their member
                    producers. Cooperatives are then responsible for ensuring the collateral is
                    free of liens.




USDA/OIG-A/03601-47-Te                                                                    Page 2
                                          On-Ground Storage

                                          On September 8, 2005, FSA issued Notice LP-2002, “CCC Authorizes
                                          On-Ground Farm Storage for Marketing Assistance Loans and Loan
                                          Deficiency Payments for Crop Years 2005 and 2006,” as a response to
                                          Hurricanes Katrina and Rita. Set to expire in September of 2006, this notice
                                          allowed on-ground storage of eligible commodities offered as collateral for
                                          9-month nonrecourse loans for crop years 2005 and 2006.

                                          During the storage period for a nonrecourse marketing assistance loan with
                                          collateral stored on-ground, producers must maintain control of the
                                          commodity, protect the commodity from animals, and position the
                                          commodity so that water drainage will not seriously affect the quality and
                                          quantity of the commodity pledged as collateral for marketing assistance
                                          loans.

                                          On February 22, 2006, FSA issued Notice LP-2018, “CCC Authorizes
                                          On-Ground Farm Storage for Marketing Assistance Loans and Loan
                                          Deficiency Payments for Crop Year 2005.” This notice removed on-ground
                                          storage as an option for crop year 2006 and stated that the distress loan 8
                                          program was available to producers who might require a loan for collateral
                                          stored on-ground.

    Objective                             Our audit objective was to determine if FSA had adequate controls over
                                          nonrecourse marketing assistance farm-stored loans.




8
    Distress loans are available for commodities stored in ineligible structures and are limited to a 90-day period.
USDA/OIG-A/03601-47-Te                                                                                                 Page 3
Findings and Recommendations
Section 1. FSA’s Procedures for Farm-Stored Loans Need Clarification

                                     FSA’s procedures allow counties and States considerable discretion in how
                                     they administer farm-stored loans. Such discretion resulted in inconsistencies
                                     in how different counties and States applied two handbooks.

                                          •    Because FSA’s handbooks for the marketing assistance loan program
                                               provide ambiguous and, in some cases, contradictory guidance
                                               regarding adjusting the value of low-quality, high-moisture collateral,
                                               we found that two of seven States reviewed did not apply those
                                               regulations correctly. In these two States, collateral was overstated by
                                               nearly $1.6 million. We determined that inequitable treatment of
                                               producers might result from the widely varying maximum acceptable
                                               moisture levels for commodities that were set by State offices across
                                               the nation.

                                          •    Because FSA’s handbooks for the marketing assistance loan program
                                               allow county committees to determine whether or not counties will
                                               use commodity loan seals, we found county offices were not using
                                               these seals consistently. Of the 16 counties reviewed, 3 did not use the
                                               seals.

                                     By improving how consistently county offices apply these regulations and by
                                     clarifying the relevant sections of its handbooks, FSA can better ensure that
                                     its interests are fully protected and the loans it issues are fully secured.




Finding 1                            FSA Did Not Correctly Apply Moisture Regulations

                                      In two of the seven States reviewed, we found that although market
                                      assistance loans were secured with low-quality, high-moisture commodities,
                                      the collateral’s value had not been reduced according to FSA’s regulations.
                                      This occurred because the two FSA handbooks 9 used for the marketing
                                      assistance loan program contradict one another, and States interpreted these
                                      handbooks differently. If FSA does not adjust for low-quality collateral,
                                      then it is overestimating the value of collateral used to secure marketing
                                      assistance loans. Of the 121 loans reviewed, we identified 16 loans secured
                                      with low-quality collateral that should have been valued at $390,891 instead
                                      of $1.95 million—a difference of nearly $1.6 million.



9
    FSA Handbook 8-LP (Revision 1), and FSA Handbook 2-LP Grains and Oilseeds (Revision 1), as amended.

USDA/OIG-A/03601-47-Te                                                                                          Page 4
                                    Two FSA handbooks set forth the regulations essential to the marketing
                                    assistance loan program. FSA Handbook 8-LP (Revision 1) 10 (henceforth
                                    referred to as the general handbook) provides general instructions for
                                    administering the program, while FSA Handbook 2-LP Grains and Oilseeds
                                    (Revision 1) 11 (referred to as the specific handbook) explains program
                                    requirements for specific commodities, such as U.S. grading standards,
                                    quality grading factors, and crop year-specific premiums and discounts. 12

                                    FSA’s general and specific handbooks, however, contain contradictory
                                    information concerning how much moisture is allowable in a commodity
                                    before it is deemed low quality—once a commodity is considered low
                                    quality, an adjustment in the collateral’s value is triggered. Although the
                                    general handbook instructs State committees to annually determine
                                    maximum acceptable moisture levels for their States, the specific handbook
                                    provides maximum eligible moisture levels (determined by the Grain
                                    Inspection, Packers and Stockyards Administration), above which
                                    commodities are deemed to be of low quality. Thus, there are potentially
                                    two moisture levels for each commodity—the maximum acceptable
                                    moisture level set by the State committee according to the general
                                    handbook’s instructions and the maximum eligible moisture level set in the
                                    specific handbook. 13 The handbooks, however, did not explain the
                                    relationship between these two thresholds, or even if they were, in fact,
                                    different thresholds.

                                    Although FSA’s Price Support Division had not monitored where States set
                                    their maximum acceptable moisture levels, at our request FSA officials
                                    obtained the maximum acceptable moisture levels for corn, sorghum,
                                    soybeans, and wheat for 38 States. We found that most of the maximum
                                    acceptable moisture levels for these four commodities exceeded the limits
                                    established in the specific handbook, sometimes by large margins, as
                                    illustrated in table 1, below. (See exhibit D for a more detailed presentation
                                    of this material.)




10
   FSA Handbook 8-LP (Revision 1), as amended.
11
   FSA Handbook 2-LP Grains and Oilseeds (Revision 1), as amended.
12
   Premiums and discounts are determined according to the grade and quality of a specific quantity of a commodity that a producer pledges as loan
collateral. On a per-unit basis, premiums are added to and discounts are subtracted from the loan rate when the loan is made.
13
   The handbooks exacerbated this problem by referring to the threshold at which a commodity is deemed to be of low quality with several terms,
including “applicable standard moisture levels,” “maximum moisture level,” “maximum eligible moisture levels,” and “maximum acceptable moisture
level.”

USDA/OIG-A/03601-47-Te                                                                                                                 Page 5
                                                            Maximum
                                                              Eligible               Mean Maximum                     Highest Maximum
                                                             Moisture                  Acceptable                        Acceptable
                                                               Level                    Moisture                          Moisture
                                                            Set In The                Level Set By                        Level Set
                                                              Specific               These 38 States                  By These 38 States
                                                            Handbook
                                        Corn                15.5 percent                  31 percent                         45 percent
                                        Sorghum              14 percent                   27 percent                         45 percent
                                        Soybeans             14 percent                   21 percent                         35 percent
                                        Wheat               13.5 percent                  21 percent                         35 percent
                                                                                       Table 1

                                      For these four commodities, States raised the maximum acceptable moisture
                                      levels to an average of 176 percent of the maximum eligible moisture level
                                      established by the specific handbook. Securing loans with commodities
                                      containing so much moisture poses a serious problem when the loan will not
                                      mature for up to 10 months. Extension university research indicates that
                                      commodities stored with moisture levels above those established in FSA’s
                                      specific handbook cannot be stored safely for longer than 6 months. 14

                                      In two of the seven States visited, we found that although collateral
                                      exceeding the maximum eligible moisture level was used to secure
                                      marketing assistance loans, the value of that collateral was not reduced
                                      according to FSA’s regulations—collateral for 16 of the 121 loans 15
                                      reviewed exceeded the specific handbook’s threshold. According to the
                                      specific handbook, 16 the $1.95 million in collateral for these 16 loans should
                                      have been valued at 20 percent of its original appraisal, or $390,891. Thus,
                                      this collateral was overvalued by nearly $1.6 million. 17

                                      When we spoke to FSA officials in Kansas and Iowa about this problem,
                                      they contended that the general handbook gave States the authority to set the
                                      maximum acceptable moisture level and to disregard the threshold in the
                                      specific handbook. Iowa officials also stated that it would be unrealistic to
                                      refuse a loan for corn with 16 or 17 percent moisture (the specific handbook
                                      establishes a threshold of 15.5 percent for corn, while Iowa’s threshold is
                                      45 percent), and that producers would not request a marketing assistance
                                      loan if they had to take an 80 percent reduction in the loan rate. 18 Officials
                                      in Iowa also stated that if the guidelines in FSA’s specific handbook were
                                      correct, then they disagreed with the policy as written. Because Kansas and
                                      Iowa contended that the general handbook gave States the authority to set

14
   Agricultural Engineers’ Digest 20, “Managing Dry Grain in Storage,” Purdue University, dated July 1995. AE-905 (Revised), “Grain Moisture Content
Effects and Management,” North Dakota State University, dated March 1995.
15
   Of these 16 loans, 3 were in Kansas and 13 were in Iowa.
16
   FSA Handbook 2-LP, paragraphs 200 E, 300 E, 400 E, etc., dated April 4, 2002. FSA Handbook 8-LP, paragraph 422, dated September 23, 2004.
17
   All the loans should have been repaid by July 31, 2006.
18
   Loan rates (expressed per production unit) are based on each commodity's national average loan rate and may be adjusted by CCC with premiums and
discounts to reflect quality factors. On a per-unit basis, premiums are added to and discounts are subtracted from the loan rate when the loan is made.

USDA/OIG-A/03601-47-Te                                                                                                                       Page 6
                                     the maximum acceptable moisture level and to disregard the threshold in the
                                     specific handbook, neither State reduced the loan rate for low-quality
                                     commodities. Loans were secured either with commodities containing less
                                     moisture than the relevant State-established limit, or refused if the moisture
                                     level exceeded that limit.

                                     Montana State FSA officials clarified this problem by stating that the
                                     procedures intended to establish a range for low-quality commodities used
                                     as collateral and that there were, in fact, two thresholds. They explained that
                                     States could establish their own “maximum acceptable moisture level,” but
                                     that commodities with more moisture than the “maximum eligible moisture
                                     level” established in the specific handbook but less than the
                                     State-established “maximum acceptable moisture level” were eligible for a
                                     nonrecourse loan at a reduced loan rate of 20 percent. 19 (See table 2, below.)

                                         Sample
                                                                                     Percent Moisture Content
                                       Commodity
                                                                       20
                                       Corn                    ≤ 15.5                   > 15.5 but ≤ 45                           > 45 21
                                       Sorghum                  ≤ 14                     > 14 but ≤ 45                            > 45
                                       Soybeans                 ≤ 14                     > 14 but ≤ 25                            > 25
                                       Wheat                   ≤ 13.5                   > 13.5 but ≤ 25                           > 25
                                                            Eligible for           Eligible for 20 percent of                Ineligible for
                                       Result              full loan rate                full loan rate                    nonrecourse loan
                                                                                     Table 2

                                     Commodities with more moisture than the State-established threshold would
                                     be ineligible for a nonrecourse loan, but they could receive a recourse
                                     loan. 22 We concurred with Montana’s interpretation of these procedures, as
                                     it takes into account the relevant procedures in both of FSA’s handbooks.

                                     Officials at FSA’s Price Support Division agreed that low-quality
                                     commodities used as collateral should receive a loan rate reduction, and that
                                     the range of thresholds for commodities of different moisture levels (as
                                     explained in table 2, above) is correct. They also agreed that the general
                                     handbook needs to be clarified to use the same language as the specific
                                     handbook. They further explained that any collateral with moisture greater
                                     than the threshold established by the specific handbook requires a loan rate
                                     reduction.

                                     We expressed concern that allowing States to set their own rates for various
                                     commodities’ maximum acceptable moisture levels could result in
                                     producers in different States being treated differently. FSA’s Price Support
                                     Division agreed that allowing State committees to set these thresholds may
                                     not be the best policy. They explained that States had been authorized to set
                                     their own thresholds as a way of increasing commodities’ eligibility for loan

19
   This reduction is in addition to any quantity reductions required for shrinkage, as established in the general handbook.
20
   The moisture thresholds in this column represent the “maximum eligible moisture” level set in the specific handbook.
21
   The moisture thresholds in this column represent Iowa’s State committee-set “maximum acceptable moisture level” from the general handbook.
22
   See footnote 1 for an explanation of recourse and nonrecourse marketing assistance loans.

USDA/OIG-A/03601-47-Te                                                                                                                     Page 7
                                         deficiency payments —a separate but related program. Federal regulations
                                         state that to be eligible to receive loan deficiency payments, a producer must
                                         meet marketing assistance loan eligibility requirements. 23 Producers may
                                         receive loan deficiency payments for commodities eligible for nonrecourse
                                         market assistance loans if producers forgo the nonrecourse marketing
                                         assistance loan. Allowing the States to set higher moisture limits was
                                         understood as a way of making more commodities eligible for loan
                                         deficiency payments, but this decision has had unintended consequences for
                                         moisture limits in the marketing assistance loan program. 24 Geographically
                                         unequal treatment of producers may result from the widely varying moisture
                                         levels.

                                        We concluded that FSA should take steps to revise these procedures and
                                        ensure that all States are applying the agency’s moisture procedures correctly
                                        and consistently.

Recommendation 1

                                        Determine if States should continue setting their own “maximum acceptable
                                        moisture levels.” If so, implement controls to monitor the reasonableness of
                                        State-established levels and compliance with loan rate reduction procedures.

                                        Agency Response.

                                        FSA’s written response, dated August 4, 2006, stated the agency determined
                                        that the State committees shall continue to establish maximum moisture
                                        levels for eligible loan commodities produced and harvested within their
                                        respective States. The agency has instructed State committees to annually
                                        establish and submit the State-established maximum moisture levels to the
                                        Price Support Division by September 1, 2006. The Price Support Division
                                        will review each State's maximum levels to ensure consistency among
                                        State-established levels. A notice was to be drafted to instruct FSA State
                                        offices to provide the Price Support Division a copy of the State-established
                                        maximum moisture levels by September 1, 2006. The notice was expected to
                                        be issued by August 18, 2006. FSA Handbooks 8-LP (Revision 1) and 2-LP
                                        Grains and Oilseeds (Revision 1) will be amended to incorporate the policy
                                        included in the notice by November 15, 2006.

                                        OIG Position.

                                        We accept the management decision for Recommendation 1.




23
     Title 7, Code of Federal Regulations, section 1421.200.
24
     We did not evaluate how State-established moisture levels affected the loan deficiency program.

USDA/OIG-A/03601-47-Te                                                                                          Page 8
Recommendation 2

                   Determine which States had a policy to not adjust the loan value for
                   low-quality commodities used as collateral and instruct those States to
                   determine the extent of the potential overstated collateral value resulting from
                   that policy, and to take corrective actions, as appropriate.

                   Agency Response.

                   FSA’s written response, dated August 4, 2006, stated a notice was to be
                   drafted to instruct FSA county offices to inform the State price support
                   specialists of any outstanding excess moisture commodity loans that were
                   disbursed in error and to take necessary corrective action as soon as possible.
                   Corrective action is only necessary if the marketing assistance loan was
                   disbursed incorrectly according to the clarified procedure stated in FSA’s
                   response to Recommendation 1. The notice was expected to be issued by
                   August 18, 2006.

                   OIG Position.

                   We cannot accept the management decision for Recommendation 2.
                   Although we agree with your planned corrective action, the extent of the
                   potentially overstated collateral cannot be determined until the policies and
                   procedures for low-quality commodities are clarified in Recommendation 3.

Recommendation 3

                   Amend the general handbook (FSA Handbook 8-LP (Revision 1)) so that it
                   clearly agrees with the specific handbook (FSA Handbook 2-LP Grains and
                   Oilseeds (Revision 1)) regarding the “maximum eligible moisture level,” the
                   “maximum acceptable moisture level,” and the application of discounted loan
                   rates for low-quality, high-moisture commodities so that the value of
                   collateral is not overstated (such as the nearly $1.6 million in Kansas and
                   Iowa).

                   Agency Response.

                   FSA’s written response to Recommendation 3 stated the agency is drafting
                   the amendment to FSA Handbook 8-LP (Revision 1) to clarify the excess
                   moisture and low-quality commodity marketing assistance loan policies and
                   procedures. FSA Handbook 2-LP Grains and Oilseeds (Revision 1) will be
                   amended to reflect the applicable settlement rate for low-quality, nonrecourse
                   loans that are delivered in satisfaction of the loan. FSA Handbooks 8-LP
                   (Revision 1) and 2-LP Grains and Oilseeds (Revision 1) are targeted to be
                   amended by November 15, 2006.



USDA/OIG-A/03601-47-Te                                                                      Page 9
                    FSA’s response to Recommendation 1 stated the agency agrees that
                    low-quality commodities can be pledged as collateral for a nonrecourse loan
                    at 20 percent of the loan rate. The inconsistency of the handbook policy is
                    based on the definition of "low-quality." Low-quality commodities do not
                    include excess moisture commodities. The audit report’s Finding 1 stated
                    that, of the 121 loans reviewed, 16 marketing assistance loans were
                    disbursed for $1.95 million, but should have been disbursed for $390,891.
                    The agency disagrees with the dollar amount cited. If the commodity
                    pledged as collateral contained moisture at or below the State committee
                    maximum levels, the quantity was reduced to the acceptable moisture levels
                    as provided by FSA and the marketing assistance loans were disbursed at the
                    full rate, then the marketing assistance loan was correctly disbursed.
                    Therefore, the marketing assistance loan collateral was not overvalued by
                    $1.6 million.

                    OIG Position.

                    We cannot accept the management decision for Recommendation 3. We
                    continue to believe that FSA needs to amend the general handbook (FSA
                    Handbook       8-LP      (Revision 1))    and    the    specific   handbook
                    (FSA Handbook 2-LP Grains and Oilseeds (Revision 1)) regarding the
                    application of discounted loan rates for low-quality, high-moisture
                    commodities. FSA needs to ensure that the definition of low-quality
                    commodities is consistent throughout its procedures and with regulations
                    and statute. We agree with FSA’s procedures to adjust the loan collateral
                    quantity if high moisture is detected. However, in the recently issued FSA
                    Notice LP-2040, dated July 31, 2006, FSA did not make it clear that an
                    adjustment is also needed for quality. The specific handbook states that
                    commodities with moisture levels that exceed the levels determined by the
                    Grain Inspection, Packers and Stockyards Administration are considered low
                    quality. Securing loans with commodities containing high moisture poses a
                    serious problem when the loan will not mature for up to 10 months.
                    Low-quality commodities are eligible for a nonrecourse loan at a reduced
                    loan rate according to the general handbook. We believe this includes
                    adjusting the value of the loan collateral when the loan is disbursed at
                    settlement and when high moisture is detected during spot checks. Based on
                    this interpretation, the loan collateral with high moisture, reviewed during
                    OIG spot checks, was overvalued by $1.6 million.




USDA/OIG-A/03601-47-Te                                                                  Page 10
Recommendation 4

                                    Issue a national notice clarifying the procedures for processing loans with
                                    excess moisture.

                                    Agency Response.

                                    FSA’s written response, dated August 4, 2006, stated a notice was to be
                                    drafted to clarify the policies and procedures for approving and issuing
                                    marketing assistance loans for excessive moisture commodities pledged as
                                    collateral for nonrecourse loans. The notice was expected to be issued by
                                    August 18, 2006.


                                    OIG Position.

                                    We cannot accept the management decision for Recommendation 4.
                                    Although we agree with your planned corrective action, the notice may have
                                    to be revised after the definition of low-quality commodities is clarified in
                                    Recommendation 3.




Finding 2                           FSA Did Not Consistently Identify Collateral with Commodity
                                    Loan Seals

                                     Of 16 counties reviewed, we found that 3 did not require commodity loan
                                     seals, 25 a form identifying commodities used as collateral for marketing
                                     assistance loans. This inconsistency occurred because FSA’s general
                                     handbook 26 for the marketing assistance loan program does not specify
                                     when commodity loan seals should be used, and instead allows county
                                     committees to decide whether or not they will use them. Since these seals
                                     are FSA’s best means of identifying specific bins of commodities, and of
                                     marking those commodities as collateral for loans, if they are not used the
                                     agency has less control over collateral securing marketing assistance loans.

                                     The general handbook for the marketing assistance loan program grants
                                     county committees the authority to determine whether commodity loan seals
                                     should be required. 27 Officials at FSA’s Price Support Division explained
                                     that this authority was granted to county committees in the early 1990s to
                                     give county offices greater authority over the marketing assistance loan
                                     program.

25
   FSA Form CCC-683, “Commodity Loan Seal.”
26
   FSA Handbook 8-LP (Revision 1), amendment 1, exhibit 18, dated June 9, 2003.
27
   FSA Handbook 8-LP (Revision 1), amendment 1, exhibit 18, dated June 9, 2003.

USDA/OIG-A/03601-47-Te                                                                                   Page 11
                    FSA employees in counties requiring commodity loan seals stated that the
                    seals act as a useful control, reminding producers that the commodity is
                    under loan and that USDA needs to be notified before the commodity is
                    moved (text on the seal states that the contents should not be removed
                    without the Department’s written consent). According to FSA employees,
                    the seals also help inspecting officials identify bins of commodities related
                    to specific loans.

                    Of the 121 loans reviewed, we found that 48, or 40 percent, were secured
                    with $6.5 million in collateral that had not been identified with commodity
                    loan seals. During a site visit to one county, OIG auditors and the
                    accompanying FSA county measurement official mistakenly measured two
                    bins containing commodities unrelated to the loan under review. Without
                    commodity seals present to mark the bins, it can be difficult even for
                    experienced inspectors to distinguish one bin from another.

                    Although the general handbook allows counties to decide if commodity loan
                    seals will be used, States may, at their discretion, require their county offices
                    to use the seals. We found that States were inconsistent in whether they
                    required seals or not. Of the seven States visited, three required their county
                    offices to use commodity loan seals on all collateral, but four did not. When
                    we spoke to officials at FSA’s Price Support Division about the
                    inconsistency with which the seals were applied, they stated that they had
                    not monitored whether States required the seals or not. They agreed that
                    county offices were using commodity loan seals inconsistently and that the
                    procedure for their use should be clarified. After our fieldwork ended, we
                    learned that one of the States reviewed issued an amendment requiring its
                    county offices to use commodity loan seals on collateral for all marketing
                    assistance loans.

                    We concluded that FSA should determine if commodity loan seals should be
                    used for all marketing assistance loans. If not, the agency should alter its
                    regulations to specify when the seals should be required and when they
                    should not.

Recommendation 5

                   Determine if commodity seals should be mandatory for all farm-stored loans.
                   If it is determined that commodity seals will be mandatory, then amend FSA
                   Handbook 8-LP (Revision 1) to require them.




USDA/OIG-A/03601-47-Te                                                                      Page 12
                   Agency Response.

                   FSA’s written response, dated August 4, 2006, stated the agency has
                   determined that commodity bin seals shall be mandatory for all farm-stored
                   loans. The agency agrees that the commodity bin seals are a useful control
                   and help commodity field inspectors identify on-farm storage bins when
                   conducting spot checks. FSA Handbook 8-LP (Revision 1) will be clarified to
                   require commodity bin seals for all farm-stored loans. The target date for
                   updating FSA Handbook 8-LP (Revision 1) is November 15, 2006.

                   OIG Position.

                   We accept the management decision for Recommendation 5.

Recommendation 6

                   If it is determined that commodity seals will not be mandatory, then amend
                   FSA Handbook 8-LP (Revision 1) to indicate the specific conditions in which
                   commodity seals will not be required.

                   Agency Response.

                   FSA’s written response, dated August 4, 2006, stated FSA has determined
                   that commodity bin seals shall be mandatory; therefore, no further action will
                   be taken on this recommendation.

                   OIG Position.

                   We accept the management decision for Recommendation 6.




USDA/OIG-A/03601-47-Te                                                                   Page 13
Section 2. FSA County Offices Did Not Always Comply with FSA’s Procedures for
Issuing and Administering Farm-Stored Loans

                                       We found county offices did not comply with FSA’s procedures for issuing
                                       and servicing farm-stored loans, even though those procedures were clearly
                                       set forth in the relevant handbooks.

                                          •   FSA requires that county offices perform spot checks of collateral
                                              used to secure farm-stored loans, but we found that 7 of 16 counties
                                              did not complete these spot checks. County offices often cited the
                                              scarcity of resources, especially personnel, for completing these
                                              checks. However, we found that the cause was more complicated, and
                                              that some county offices had not implemented the control as written.
                                              If these spot checks are not performed, FSA’s best control for
                                              ensuring the integrity of collateral is not functioning as designed, and
                                              the agency cannot be certain that this collateral will cover the value of
                                              loans at maturity. This control is especially important since many of
                                              the farm-stored loans are self-certified and because we noted that FSA
                                              did not always correctly apply moisture regulations for low-quality
                                              commodities (see Finding 1).

                                          •   FSA requires that county employees complete loan documents when
                                              processing applications for farm-stored loans, but we found that 10 of
                                              16 counties left important loan documents incomplete (the most
                                              prevalent problems were failure to enter loan and farm numbers on
                                              the required forms). These incomplete forms were not detected in the
                                              second-party review process because the second-party review was not
                                              designed to detect these errors and, moreover, was seldom being
                                              completed. Without completing these forms, FSA lacks assurance that
                                              these loans were issued in accordance with all applicable laws,
                                              regulations, and procedures.

                                          •   Finally, although FSA requires county and State officials to be
                                              familiar with procedures for the programs they administer, we found
                                              that the FSA county office in Pinal County, Arizona, made a number
                                              of errors when administering farm-stored loans for a cooperative
                                              marketing association, including mistakenly issuing premiums,
                                              issuing loans for collateral stored in an ineligible structure, and failing
                                              to provide the loan recipient with critical documentation. The Pinal
                                              County FSA Office thus issued questionable loans totaling
                                              $603,431. 28




28
     $120,425 + $483,006 = $603,431.

USDA/OIG-A/03601-47-Te                                                                                          Page 14
                                          By addressing these problems, FSA can improve its controls over how
                                          county offices process, issue, and administer farm-stored loans as part of
                                          the marketing assistance loan program, as well as obtain greater assurance
                                          that nonrecourse marketing assistance loans are secured with sufficient
                                          collateral.




Finding 3                            FSA County Offices Did Not Always Perform Spot Checks of
                                     Collateral for Farm-Stored Loans

                                      In 7 of 16 counties, FSA did not complete all required monthly spot checks
                                      of loan collateral. Officials at FSA’s Price Support Division asserted that,
                                      generally speaking, established controls for monthly spot checks were not
                                      functioning as designed because county offices did not have sufficient staff
                                      to perform the checks. We found, however, that the cause was more
                                      complicated, and that county offices failed to perform their spot checks for
                                      varying reasons. While county offices in Kansas and Montana lacked
                                      sufficient personnel to perform these spot checks, county offices in Indiana
                                      and Arkansas had not implemented the spot-check requirements as written.
                                      In Indiana, personnel wrongly believed that they were not required to spot
                                      check measured loans issued within the past 30 days. In Arkansas, personnel
                                      did not spot check the specific loans selected by the automated process, but
                                      chose other, more conveniently located loan collateral. Additionally, one
                                      county office in Arizona was unaware that it needed to generate a
                                      spot-check register and perform checks for a cooperative marketing
                                      association. Without performing these checks, one of FSA’s most effective
                                      controls for preventing abuse in its farm-stored loan program is not
                                      functioning as designed and cannot ensure the sufficiency of collateral used
                                      to secure these loans.

                                      Because the marketing assistance loan program allows producers to
                                      self-certify their collateral when they apply for a loan, FSA requires county
                                      offices to make onsite spot checks of 2.5 percent of all outstanding
                                      farm-stored loans and loan deficiency payments. 29 On a monthly basis, FSA
                                      uses an automated process to select the loans county offices will review.
                                      Loans selected by this process must be reviewed regardless of whether the
                                      collateral has recently been measured during the regular servicing of
                                      farm-stored loans. Counties then certify the completion of monthly spot
                                      checks on a performance report, which they send to the State office. 30 FSA
                                      considers approved cooperative marketing associations as eligible
                                      producers, but assigns them a unique county code. Loans to cooperative
                                      marketing associations also are subject to spot checks, but because they

29
     FSA Handbook 12-PS, paragraphs 1500 A and B, revision 2, amendment 1, dated May 18, 2001.
30
     FSA Handbook 8-LP, paragraph 516 B, dated June 9, 2003. FSA Handbook 12-PS, paragraph 1500 G, revision 2, amendment 1, dated May 18, 2001.

USDA/OIG-A/03601-47-Te                                                                                                                Page 15
                                   have a different county code, the administrative county must generate a
                                   spot-check register distinct from the county’s regular register. 31

                                   We found, however, that 7 of the 16 FSA county offices reviewed had not
                                   completed these spot checks as required, as illustrated in table 3, below.


                                                  Counties Where
      States Where Spot Checks                   Spot Checks Were                                         Cause
        Were Not Performed                        Not Performed
      Kansas                                    Washington                       Lacked sufficient personnel resources
      Montana                                   Judith Basin                     Lacked sufficient personnel resources
                                                Sheridan                         Lacked sufficient personnel resources
                                                Roosevelt                        Lacked sufficient personnel resources
      Indiana                                   White                            Spot checks not implemented as required
      Arkansas                                  Clay                             Spot checks not implemented as required
                                                                                 Did not generate spot-check register for
      Arizona                                   Pinal                            cooperative marketing associations
                                                                 Table 3

                                   FSA County Offices Lacked Sufficient Personnel Resources to Perform
                                   Spot Checks

                                   FSA officials in Washington County, Kansas, explained that they had been
                                   unable to complete FSA’s required spot checks of loan collateral because
                                   they were unable to hire a field reporter who could work during peak
                                   periods. Immediately before we arrived for our visit, however, the county
                                   hired a field reporter and was beginning to process the backlog of overdue
                                   spot checks.

                                   FSA offices in Judith Basin, Sheridan, and Roosevelt Counties, Montana,
                                   also failed to complete the required spot checks because they lacked
                                   sufficient personnel. State and county officials maintained that they simply
                                   did not have the budgetary resources to hire the personnel necessary to
                                   complete all required monthly spot checks.

                                   FSA County Offices Did Not Implement the Spot-Check Control as Written

                                   FSA officials in White County, Indiana, explained that they did not
                                   complete FSA’s required spot checks of loan collateral because they
                                   believed that if county employees had recently measured the collateral
                                   during the regular servicing of farm-stored loans, then the additional spot
                                   check was unnecessary. Although county officials stated that this practice
                                   was standard procedure, they could not provide evidence of this procedure.
                                   Moreover, the program handbook clearly states that checks are required,



31
  FSA Handbook 8-LP, paragraph 103, revision 1, amendment 8, dated January 6, 2005. FSA Handbook 1-CMA, paragraphs 53 B and 73 B, revision 1,
amendment 1, dated April 19, 2004.

USDA/OIG-A/03601-47-Te                                                                                                            Page 16
                                      even if the commodity was previously measured during the regular servicing
                                      of farm-stored loans. 32

                                      Although the FSA office in Clay County, Arkansas, did complete the
                                      required number of spot checks, we found that the county’s field reporter
                                      was not checking the loans selected by the agency’s automated process.
                                      Instead, the field reporter explained that he substituted other loans for those
                                      selected by the automated system because he was running behind and tried
                                      to save time by reviewing loans in closer proximity to his other work.

                                      Due to this problem, we reviewed FSA’s controls over its “Monthly
                                      Spotcheck Performance Report,” which county offices must use to certify
                                      completion of their spot checks. This report only indicates the number of
                                      checks performed and does not identify the specific loans checked.

                                      FSA County Office in Pinal County, Arizona, Did Not Generate Spot-Check
                                      Register for Cooperative Marketing Associations

                                      Although the FSA office in Pinal County, Arizona, did generate a
                                      spot-check register and performed spot checks for ordinary farm-stored
                                      loans, it did not do so for loans issued to a cooperative marketing
                                      association. County officials were unaware that they were required to
                                      generate a separate spot-check register since cooperative marketing
                                      associations assigned their own county codes. Because Pinal County
                                      officials did not generate this register, they did not perform required spot
                                      checks of this cooperative marketing association.

                                      As we learned during our fieldwork at FSA’s Price Support Division,
                                      officials there were aware that some county offices were not able to
                                      complete spot checks because they lacked the personnel. FSA has
                                      established a Compliance Task Force to review current spot-check
                                      procedures, and officials in the Price Support Division stated that they are
                                      waiting for the task force’s conclusions before taking action to alter current
                                      spot-check procedures.

                                     We concluded that since these spot checks are an internal control developed
                                     by FSA to monitor collateral for farm-stored loans, the agency should take
                                     steps to revise its procedures so that county offices can reasonably complete
                                     the checks with their existing, limited personnel. In addition, FSA should
                                     take steps to ensure that county offices implement required procedures as
                                     written.




32
     FSA Handbook 8-LP, paragraph 516 B, dated June 9, 2003.

USDA/OIG-A/03601-47-Te                                                                                       Page 17
Recommendation 7

                   Based upon the conclusions of FSA’s Compliance Task Force, revise
                   procedures for performing spot checks so that all counties can reasonably
                   complete them with their existing, limited personnel.

                   Agency Response.

                   FSA’s written response, dated August 4, 2006, stated the FSA Compliance
                   Task Force is reviewing various options concerning how compliance checks
                   shall be conducted across respective program areas under the Deputy
                   Administrator for Farm Programs. Upon the completion of the FSA
                   Compliance Task Force, recommendations will be submitted to the Deputy
                   Administrator for Farm Programs, and, if accepted, the existing marketing
                   assistance loan spot-check procedures will be modified. The agency will
                   determine whether implementation of the accepted FSA Compliance Task
                   Force recommendations will address this report’s recommendation. Based on
                   FSA’s determinations, the agency will make the necessary automation
                   changes to the spot-check process within a reasonable timeframe of the final
                   decision. FSA believes it will be in the best interest of the marketing
                   assistance loan program not to take corrective action on this recommendation
                   until a final decision is rendered by the Deputy Administrator for Farm
                   Programs. A specified timeframe cannot be determined at this time. All
                   software changes and enhancements must be reviewed by the Automation
                   Branch and the Information Technology Systems Division before a
                   development time can be established.

                   OIG Position.

                   We cannot accept the management decision for Recommendation 7. Until
                   the FSA Compliance Task Force has completed its activities, FSA needs to
                   provide instruction to the States that outlines an interim plan for monitoring
                   spot checks. An estimated date for the completion of the Compliance Task
                   Force activities needs to be provided.

Recommendation 8

                   Instruct the Indiana State FSA Office to provide training to the county offices
                   on how to perform spot checks, regardless of whether the loan was recently
                   measured during the regular servicing of farm-stored loans, and direct the
                   appropriate personnel (i.e., district director, State specialist) to monitor
                   compliance with the procedures after county office personnel have received
                   the training.




USDA/OIG-A/03601-47-Te                                                                   Page 18
                    Agency Response.

                    FSA’s written response, dated August 4, 2006, stated the Deputy
                    Administrator for Field Operations has instructed the Indiana State FSA
                    Office to provide training to county offices for conducting spot checks. The
                    memorandum also instructed the Indiana State FSA Office to monitor the
                    county office spot-check activity to ensure that the monthly spot checks are
                    being conducted and are recorded properly in the Automated Price Support
                    System.

                    OIG Position.

                    We accept the management decision for Recommendation 8.

Recommendation 9

                    Instruct the Arkansas State FSA Office to provide training to the Clay County
                    FSA Office on how to perform spot checks on the loans selected by the
                    automated system, and direct the appropriate personnel (i.e., district director,
                    State specialist) to monitor compliance with the procedures after county
                    office personnel have received the training.

                    Agency Response.

                    FSA’s written response, dated August 4, 2006, stated the Deputy
                    Administrator for Field Operations has instructed the Arkansas State FSA
                    Office to provide training to county offices for conducting spot checks. Also,
                    the Arkansas State FSA Office has been instructed to monitor county office
                    spot-check activity to ensure that the monthly spot checks are being
                    conducted and are recorded properly in the Automated Price Support System.

                    OIG Position.

                    We accept the management decision for Recommendation 9.

Recommendation 10

                    Instruct the Arizona State FSA Office to provide training to the Arizona
                    county offices on how to generate spot-check registers for all county codes,
                    including cooperative marketing association county codes, and direct the
                    appropriate personnel (i.e., district director, State specialist) to monitor
                    compliance with the procedures after county office personnel have received
                    the training.




USDA/OIG-A/03601-47-Te                                                                     Page 19
                                     Agency Response.

                                     FSA’s written response, dated August 4, 2006, stated, according to the
                                     information provided in Finding 3, the Pinal County FSA Office did generate
                                     a spot-check register and performed the spot checks for the applicable
                                     farm-stored loans. The Pinal County FSA Office did not generate a
                                     spot-check register or perform spot checks for the cooperative marketing
                                     association county code. Cooperative marketing associations are assigned a
                                     separate county code; therefore, a separate spot-check process must be run
                                     for that specific county code. The current automated spot-checking process
                                     needs to be modified to efficiently address random spot checks of marketing
                                     assistance loan numbers and all related loans associated with the selected
                                     loan (producer). Because the cooperative marketing association is the only
                                     "producer" in the cooperative marketing association county, all loans and
                                     related loans, which may be extremely large, appear each month on the
                                     random spot-check report. The cooperative marketing association county
                                     random monthly spot-check report is time consuming and extremely large.
                                     Some cooperative marketing association county offices have reported system
                                     lockups and other system-related failures related to the automated process
                                     involved in running the monthly spot-check report.

                                     FSA will not instruct the Arizona State FSA Office, at this time, to provide
                                     training on how to generate spot-check registers for cooperative marketing
                                     associations. The cooperative marketing association’s approval status with
                                     FSA has been terminated. However, Price Support Division personnel will
                                     work with the FSA Compliance Task Force to determine a more efficient
                                     automated spot-check process for cooperative marketing association county
                                     offices.

                                     OIG Position.

                                     We accept the management decision for Recommendation 10.




Finding 4                            County Offices Did Not Always Follow FSA’s Administrative
                                     Procedures

                                      In 10 of 16 counties, county employees did not follow FSA’s administrative
                                      procedures and, thus, did not always complete required loan forms—of
                                      121 loans reviewed, we found that loan forms for 32 of these loans were
                                      incomplete. 33 This occurred because the only review of these loans
                                      performed prior to disbursing funds is designed to review applicants’
                                      eligibility, and not to verify whether all supporting documentation is

33
     FSA Form CCC-666, “Farm-stored Loan Quantity Certification.”

USDA/OIG-A/03601-47-Te                                                                                   Page 20
                                       complete. We found, moreover, that these second-party reviews were
                                       seldom performed, and were not being fully documented. They were thus
                                       incapable of serving their intended purpose (that is, reviewing applicants’
                                       eligibility) as well as verifying that loan forms were complete. Without
                                       completing all required loan forms and reviews, FSA lacks assurance that
                                       loans are processed in compliance with all relevant laws, regulations, and
                                       procedures, thereby increasing financial risk to the agency.

                                       FSA procedures provide detailed instructions for completing loan forms,
                                       including a sample completed form (specifically FSA form CCC-666). 34
                                       Although FSA procedures do require a second-party review of eligibility
                                       requirements prior to disbursing loans, that review is not designed to verify
                                       that all forms have been completed. 35

                                       Of the 121 loans reviewed, we found that documentation for 32 loans (FSA
                                       form CCC-666) was incomplete. The most prevalent problems were failure
                                       to enter loan and farm numbers. Since the second-party review performed
                                       for these loan applications was designed only to review eligibility
                                       requirements, it did not detect these errors. Moreover, we noted that few
                                       second-party reviews were performed. Of 16 counties, 14 did not perform
                                       second-party reviews according to FSA’s requirements. Even when
                                       second-party reviews were performed, they were not fully documented in
                                       the loan file. Though FSA regulations state that the reviewing official must
                                       initial applications when completing reviews, this was not always done, and
                                       the optional checklist for loan processing was seldom included in the file.

                                       FSA’s Price Support Division is aware of county offices’ difficulties
                                       completing loan application forms and second-party reviews. FSA conducts
                                       broad reviews of all programs to assess program performance and
                                       compliance. The results of these broad reviews are published in the County
                                       Operations Review Program report. The 2004 and 2005 County Operations
                                       Review Program reports both identified problems with counties completing
                                       necessary forms when processing loan applications. In 2005, FSA also noted
                                       that second-party reviews were not always completed. In both years, FSA
                                       issued notices intended to address these problems.

                                       When we spoke to officials at FSA’s Price Support Division about the
                                       ongoing nature of these problems, they stated that most of the errors related
                                       to incomplete forms and second-party reviews could best be fixed by
                                       modifying their current computer system. That modification should include
                                       an automated control to prevent loan disbursement until all required forms
                                       are completed and second-party reviews have been conducted.




34
     FSA Handbook 8-LP, paragraphs 426 A and B, revision 1, amendment 1, dated June 9, 2003.
35
     FSA Handbook 8-LP, paragraph 136 A, revision 1, amendment 1, dated June 9, 2003.

USDA/OIG-A/03601-47-Te                                                                                      Page 21
                    Price Support Division officials stated that budget constraints will prevent
                    them from making this change in the immediate future. We maintain,
                    however, that this is a significant control issue that needs to be addressed.
                    Since FSA is in the process of moving to a new web-based information
                    technology system, it should include such a control in the new system.

Recommendation 11

                    Implement an automated control in the new web-based system that will
                    prevent loan disbursement until all required loan information has been
                    recorded and second-party reviews have been performed.

                    Agency Response.

                    FSA’s written response, dated August 4, 2006, stated the Price Support
                    Division has written software user requirements to develop a web-based
                    marketing assistance loan program. User requirements will be amended to
                    require a validation to ensure that the second-party review of the marketing
                    assistance loan has been completed before the loan is disbursed. The
                    deployment (software release) date for the fully functional web-based
                    marketing assistance loan system is to be determined. This date depends
                    heavily on available resources and funding.

                    OIG Position.

                    We cannot accept the management decision for Recommendation 11. Until
                    an automated control can be implemented, FSA needs to provide instruction
                    to the States that outlines an interim plan for monitoring that all required loan
                    information has been recorded and second-party reviews have been
                    performed before loan disbursement. An estimated date for the automated
                    control implementation needs to be provided.

Recommendation 12

                    Instruct State offices to direct the appropriate personnel (i.e., district
                    directors, State specialists) to monitor the completion of the second-party
                    review process, and certify the results for the State office so that it can
                    identify and correct administrative errors in addition to reviewing loan
                    eligibility.

                    Agency Response.

                    FSA’s written response, dated August 4, 2006, stated a notice is in clearance
                    regarding several issues that were identified during a National County
                    Operations Review Program review of the 2005 crop year marketing
                    assistance loans and loan deficiency payments. One of the findings included
                    second-party reviews not being completed before a loan or loan deficiency

USDA/OIG-A/03601-47-Te                                                                      Page 22
                                   payment is made. The notice in clearance references current FSA handbook
                                   procedures which instruct the county offices to have a second-party review of
                                   eligibility requirements before disbursing a loan or loan deficiency payment.
                                   The target date for issuing the notice is August 31, 2006. The agency is
                                   developing a training module to address the performance and accountability
                                   issues discovered as a result of the County Operations Review Program
                                   review. District directors and other designated FSA employees will be
                                   required to review the training module and to certify to completion of the
                                   training. The training module will be made available to all States in
                                   September 2006. Additional instructions will be included in the next
                                   amendment to FSA Handbook 8-LP (Revision 1) instructing the district
                                   directors to review marketing assistance loans to ensure second-party reviews
                                   are completed. The next amendment to FSA Handbook 8-LP (Revision 1) is
                                   targeted for issuance November 15, 2006.

                                   OIG Position.

                                   We accept the management decision for Recommendation 12.




Finding 5                          The FSA Office in Pinal County, Arizona, Did Not Follow
                                   Procedures for Issuing and Administering Loans to a
                                   Cooperative Marketing Association

                                    FSA’s office in Pinal County, Arizona, did not follow procedures for issuing
                                    and administering eight crop year 2004 and 2005 loans 36 to a cooperative
                                    marketing association. Because officials at the Pinal County FSA Office
                                    were not familiar with policies and procedures for issuing farm-stored loans,
                                    they did not follow controls established by FSA for properly administering
                                    these loans. Employees at the county office mistakenly disbursed
                                    premiums 37 for farm-stored loans, issued loans for collateral stored in an
                                    ineligible structure, and did not provide critical loan documentation to the
                                    recipient. In sum, the Pinal County FSA Office issued this cooperative
                                    marketing association ineligible loans totaling $603,431. 38

                                    According to Departmental regulations, FSA county managers are required
                                    to establish, maintain, evaluate, improve, and report on controls for their
                                    assigned area. 39 For the farm-stored loan program, FSA managers should
                                    understand how to administer loans to cooperative marketing associations
                                    according to all applicable FSA regulations. Those regulations state that an

36
   Three loans were issued in crop year 2004, another five in crop year 2005.
37 Premiums and discounts are determined according to the grade and quality of a specific quantity of a commodity that a producer pledges as loan
collateral. On a per-unit basis, premiums are added to and discounts are subtracted from the loan rate when the loan is made.
38
   $120,425 + 483,006 = $603, 431.
39
   USDA Management Control Manual 1110-002, paragraph 6, dated November 9, 2002.

USDA/OIG-A/03601-47-Te                                                                                                               Page 23
                                      approved cooperative marketing association is considered an eligible
                                      producer under the marketing assistance loan program. 40 Cooperative
                                      marketing associations must, in other words, meet the requirements and
                                      restrictions applicable to any other eligible producer.

                                      We found, however, that because officials at the Pinal County FSA Office
                                      were unaware of policies regarding administering loans to cooperative
                                      marketing associations, they issued $603,431 in questionable loans. The
                                      county office made three errors: (1) it mistakenly issued premiums to a
                                      cooperative marketing association for farm-stored loans, (2) it issued loans
                                      for collateral stored in an ineligible structure, and (3) it did not provide
                                      critical loan documentation to this cooperative marketing association.

                                      Premiums Issued on Farm-Stored Loans

                                      For eight crop year 2004 and 2005 loans, the Pinal County FSA Office
                                      issued premiums for which farm-stored loans were ineligible. This occurred
                                      because county employees incorrectly believed they could issue premiums
                                      for collateral held as security for these loans. Accordingly, they obtained
                                      from the cooperative marketing association proof of the commodities’
                                      quality and, at the producer’s request, then issued premiums totaling
                                      $120,425. 41

                                      While high-quality commodities held as collateral are eligible for premiums
                                      for some marketing assistance loans, FSA requires that official quality
                                      determinations—required prior to issuing premiums—not be made for
                                      farm-stored loans. 42 Thus, no quality determinations should be made, and no
                                      premiums should be issued for collateral used to secure farm-stored loans.

                                      We asked county officials why they issued the premiums on farm-stored
                                      marketing assistance loans, and they explained that they had called the State
                                      office and that officials there had confirmed that issuing premiums was
                                      appropriate. Officials at the State office confirmed that they did advise the
                                      county office to issue the premiums, and further stated that they had
                                      contacted the Price Support Division on the topic. There was, however, no
                                      evidence of this contact, and officials at the Price Support Division did not
                                      recall any conversation on the subject.

                                      When we spoke to officials at the Price Support Division familiar with the
                                      automated system used to process marketing assistance loans, they
                                      explained that the system is not programmed to apply premiums and
                                      discounts to farm-stored loans. The officials stated that, if the county code 43
                                      is not entered when processing a loan, counties can set their own loan rate.

40
   FSA Handbook 8-LP, paragraph 103, amendment 8, revision 1, dated January 6, 2005.
41
   $80,819 was paid in crop year 2004, and $39,606 in crop year 2005.
42
   FSA Handbook 8-LP, paragraph 431 B, amendment 1, revision 1, dated June 9, 2003.
43
   FSA assigns each county a three-digit county code; similarly, FSA assigns approved cooperative marketing associations a unique county code.

USDA/OIG-A/03601-47-Te                                                                                                                      Page 24
                                   FSA has included this override in the automated system in order to permit
                                   counties to deal with unusual circumstances when a county loan rate cannot
                                   be found. Upon further review, we confirmed that none of Pinal County’s
                                   loans to this cooperative marketing association included the cooperative
                                   marketing association’s county code. We concluded that the county office
                                   did not enter the cooperative marketing association’s county code so that it
                                   could enter an increased loan rate and prompt the automated system to issue
                                   a premium when no premium should have been issued.

                                   We concluded that the Pinal County FSA Office should not have issued the
                                   $120,425 in premiums to this cooperative marketing association.

                                   Loans Issued for Ineligibly Stored Collateral

                                   The Pinal County FSA Office issued five crop year 2005 loans for collateral
                                   stored on-ground, even though FSA had not approved on-ground storage as
                                   of the date of the loans. This occurred because FSA gave written approval in
                                   2004 (and for 2004 only) for Arizona to issue nonrecourse farm-stored loans
                                   to one cooperative marketing association for collateral stored on-ground.
                                   Pinal County FSA officials wrongly believed that this approval extended to
                                   subsequent crop years. Between June and August 2005, when the Pinal
                                   County FSA Office issued these five loans, on-ground storage had not been
                                   approved and would not be approved until September 8, 2005. 44 Since
                                   collateral was not approved to be stored on-ground during this period,
                                   Arizona should not have issued the 2005 loans at all, and we question the
                                   loan principal disbursements of $483,006 issued to the cooperative
                                   marketing association.

                                   According to FSA regulations, approved structures for the farm-stored loan
                                   program consist of a storage structure located on or off the farm, excluding
                                   public warehouses, that provides safe storage for the commodity through the
                                   maturity date and is oxygen-limiting. 45 Under ordinary circumstances,
                                   on-ground storage is not approved.

                                   When we asked State and county officials why they approved these loans,
                                   they stated that they had the Price Support Division’s direct approval to do
                                   so. Officials at the Price Support Division, however, provided
                                   documentation that the on-ground storage of collateral for marketing
                                   assistance loans was approved only for 2004.

                                   We concluded that the Pinal County FSA Office should not have issued total
                                   loan principal disbursements of $483,006 to this cooperative marketing
                                   association.


44
   Notice LP-2002, “CCC Authorizes On-Ground Farm Storage for Marketing Assistance Loans and Loan Deficiency Payments for Crop Years 2005 and
2006,” dated September 8, 2005.
45
   FSA Handbook 8-LP, paragraph 424, amendment 1, revision 1, dated June 9, 2003.

USDA/OIG-A/03601-47-Te                                                                                                            Page 25
                    Producers Did Not Receive Complete Documentation Concerning Transfer
                    of Collateral

                    When we visited the Arizona cooperative marketing association’s
                    commodity storage location, we observed that workers were moving the
                    collateral, but the cooperative marketing association had not informed FSA
                    of its intent to do so (see illustration 1, below). We learned that the
                    cooperative marketing association had, in fact, sold the collateral and was
                    transferring it to the buyer. Cooperative marketing association
                    representatives explained that they had not informed FSA of the collateral’s
                    sale and transfer because they were unaware of any requirement to do so,
                    and had operated this way for several years. They explained that FSA had
                    not provided them with FSA Form CCC-601, “Commodity Credit
                    Corporation Note and Security Agreement Terms and Conditions,” a critical
                    form setting forth producers’ responsibility to notify FSA when transferring
                    commodities used as collateral. Officials at the Pinal County FSA Office
                    confirmed that they were unaware of this form and, thus, had not provided it
                    to the cooperative marketing association. Unless producers receive this
                    form, they will be unaware of their responsibilities when transferring
                    commodities held as collateral for FSA’s loans.




                              Illustration 1: Cooperative Marketing Association Representatives
                                                  Removing Loan Collateral




USDA/OIG-A/03601-47-Te                                                                            Page 26
                                       According to agency regulations, county offices are required to provide
                                       producers with FSA form CCC-601, 46 setting forth the terms for the sale
                                       and transfer of collateral.

                                       We concluded that the Pinal County FSA Office did not provide the
                                       producer with critical documentation. Because the cooperative marketing
                                       association was unaware of its responsibilities, it disposed of loan collateral
                                       without proper authorization. As of March 2006, the county committee had
                                       taken no action to address this violation.

                                       Overall, we found that FSA should take steps to ensure that the Pinal
                                       County FSA Office administers future loans to cooperative marketing
                                       associations according to FSA’s procedures. As of May 2006, all of the
                                       loans have been repaid; however, the financial risk could have been
                                       minimized by following FSA procedures.

Recommendation 13

                                      Provide training in the marketing assistance farm-stored loan program to the
                                      Arizona State and county offices to ensure that (1) producers receive
                                      complete loan documentation, (2) ineligible loans are not disbursed (such as
                                      the $483,006), and (3) premiums are not disbursed on farm-stored loans (such
                                      as the $120,425).

                                      Agency Response.

                                      FSA’s written response, dated August 4, 2006, stated that the Price Support
                                      Division is in the process of developing a series of training modules on
                                      marketing assistance loan and loan deficiency payments policies and
                                      procedures. Electronic loan deficiency payments automation training
                                      modules are available to the State and county offices and have been very
                                      beneficial in training States and county offices on how to process web-based
                                      electronic loan deficiency payments. The Price Support Division is planning
                                      to make the marketing assistance loan training modules available by
                                      October 2006. Upon completion of the online training modules, State and
                                      county office personnel must certify that the training was completed. The
                                      issues cited in Recommendation 13 will be covered in the general marketing
                                      assistance loan training modules.

                                      OIG Position.

                                      We cannot accept the management decision for Recommendation 13.
                                      Although we agree with your planned corrective action, an estimated date for
                                      completion of the training needs to be provided.



46
     FSA Handbook 8-LP, paragraph 411 D, amendment 1, revision 1, dated June 9, 2003.

USDA/OIG-A/03601-47-Te                                                                                        Page 27
Recommendation 14

                    Instruct the Arizona State FSA Office to direct the appropriate personnel (i.e.,
                    district director, State specialist) to review a sample of marketing assistance
                    farm-stored loans disbursed by Pinal County, after county office personnel
                    have received the training in the previous recommendation.

                    Agency Response.

                    FSA’s written response, dated August 4, 2006, stated that FSA will instruct
                    the Arizona State FSA Office, in writing, after the training has been
                    completed, to review a sample of the outstanding marketing assistance loans
                    disbursed by the Pinal County FSA Office.

                    OIG Position.

                    We cannot accept the management decision for Recommendation 14. FSA
                    needs to provide an estimated date for instructing the Arizona State FSA
                    Office, in writing, after the training has been completed, to review a sample
                    of the outstanding marketing assistance loans disbursed by the Pinal County
                    FSA Office.

Recommendation 15

                    Instruct the Arizona State FSA Office to determine if county offices issued
                    premiums on any other farm-stored loans, and provide the results to the Price
                    Support Division.

                    Agency Response.

                    FSA’s written response, dated August 4, 2006, stated the Deputy
                    Administrator for Field Operations has instructed the Arizona State FSA
                    Office to review all 2005 crop year farm-stored marketing assistance loans to
                    determine if loans were incorrectly disbursed based on the incorrect loan rate.
                    The Arizona State FSA Office must report findings and the corrective action
                    taken no later than September 18, 2006, to the Price Support Division.

                    OIG Position.

                    We accept the management decision for Recommendation 15.




USDA/OIG-A/03601-47-Te                                                                     Page 28
Recommendation 16

                    Establish and implement an automated control in the farm-stored loan
                    computer system to ensure that premiums are not disbursed on farm-stored
                    loans.

                    Agency Response.

                    FSA’s written response, dated August 4, 2006, stated the Automated Price
                    Support System’s loan-making subsystem has an automated control
                    restricting premiums from being added to the existing county loan rate, as
                    provided on the county loan rate table file. The Automated Price Support
                    System does allow the entry of different loan rates based on the storage
                    location of the commodity pledged for marketing assistance loans.
                    Additional validations for entering different loan rates and eliminating the
                    possibility of county offices arbitrarily modifying loan rates will be addressed
                    and developed in the new web-based marketing assistance loan system.
                    Information technology funds are limited, and all software enhancements to
                    the Automated Price Support System must be reviewed and prioritized before
                    funds will be made available to support the modification; therefore, the
                    agency will not change the existing Automated Price Support System
                    software. The agency will plan to implement this recommendation in the
                    web-based marketing assistance loan system.

                    OIG Position.

                    We cannot accept the management decision for Recommendation 16. Until
                    an automated control can be implemented, FSA needs to provide instruction
                    to the States that outlines an alternative plan to ensure that premiums are not
                    disbursed on farm-stored loans. An estimated date for the automated control
                    implementation needs to be provided.




USDA/OIG-A/03601-47-Te                                                                     Page 29
Scope and Methodology
                                   Our audit covered the nonrecourse marketing assistance farm-stored loans
                                   for crop year 2005. In order to fully develop an audit issue concerning
                                   premium disbursements in Arizona, we also reviewed a limited number of
                                   loans from crop year 2004. Fieldwork began on November 2, 2005, and
                                   ended April 18, 2006.

                                   At the FSA National Office, we conducted interviews to assess FSA’s
                                   oversight of the marketing assistance loan program, including the strategic
                                   and annual planning process, the Federal Manager’s Financial Integrity Act
                                   Report, and other internal reviews.

                                   We obtained and analyzed marketing assistance loan program data from
                                   FSA’s database in Kansas City, Missouri, as of October 26, 2005. Because
                                   we focused on relief efforts in response to Hurricanes Katrina and Rita, we
                                   selected States utilizing on-ground storage under the provisions of Notice
                                   LP-2002. 47 Our universe consisted of 11,685 farm-stored loans totaling
                                   nearly $554 million.

                                   On November 2, 2005, officials at FSA’s Price Support Division provided a
                                   list of all on-ground stored marketing assistance loans in the nation. This list
                                   showed on-ground stored loans had been issued in Arizona, Illinois, Iowa,
                                   Kansas, and Montana. We selected Arkansas and Indiana because they had
                                   especially high nonrecourse marketing assistance loan program activity. We
                                   decided to review 22 loans totaling $1,976,363 with collateral stored
                                   on-ground, as well as a selection of 99 loans totaling $15.8 million with
                                   collateral stored in bins. In total, we reviewed 121 loans valued at nearly
                                   $17.8 million in 16 counties in 7 States (see exhibits B and C). Our sample
                                   represents 1 percent of the total number of farm-stored loans in our universe
                                   and 3 percent of the total loans issued nationwide.

                                   We reviewed loan records to determine if producers met eligibility
                                   requirements, if county offices followed administrative procedures, and if
                                   loan documentation was complete. In addition, we visited the storage sites
                                   for 121 selected loans to verify the quantity and quality of the pledged
                                   collateral by measuring and sampling the commodity. When necessary, we
                                   interviewed     producers   and     cooperative   marketing    association
                                   representatives. We also reviewed records and interviewed staff regarding
                                   the agency’s compliance activities for the marketing assistance loan
                                   program. Further, we reviewed documentation and assessed the
                                   reasonableness of FSA’s actions when violations were detected.


47
  Notice LP-2002, “CCC Authorizes On-Ground Farm Storage for Marketing Assistance Loans and Loan Deficiency Payments for Crop Years 2005 and
2006,” dated September 8, 2005.

USDA/OIG-A/03601-47-Te                                                                                                           Page 30
                    The audit was conducted in accordance with Government Auditing
                    Standards issued by the Comptroller General of the United States.
                    Accordingly, the audit included such tests of program records as considered
                    necessary to meet the audit objective.




USDA/OIG-A/03601-47-Te                                                                 Page 31
Exhibit A – Summary of Monetary Results
                                                                                                  Exhibit A – Page 1 of 1




     Finding             Recommendation
     Number                  Number                             Description          Amount           Category
                                                              Loans Inadequately
         1                               3                      Secured With                      Questioned Loans,
                                                                 Low-Quality         $1,563,565    No Recovery 48
                                                                  Collateral

         5                              13                      Ineligible Loan                   Questioned Loans,
                                                                   Premium             $120,425    No Recovery 49

         5                              13                   Loans With Ineligibly              Questioned Loans,
                                                               Stored Collateral       $483,006  No Recovery 50
                                               Total                                 $2,166,996




48
   All the loans should have been repaid by July 31, 2006.
49
   Loans and premiums paid in full
50
   Loans and premiums paid in full.

USDA/OIG-A/03601-47-Te                                                                                         Page 32
Exhibit B – List of Sites Visited
                                                                     Exhibit B – Page 1 of 1



           FSA Offices Visited                            Location

National Office                     Washington, D.C.

Arizona State Office                Phoenix, AZ
    Pinal County Office                 Casa Grande, AZ

Arkansas State Office               Little Rock, AR
    Clay County Office                    Piggot, AR
    Lawrence County Office                Walnut Ridge, AR

Illinois State Office               Springfield, IL
     Bond County Office                  Greenville, IL
     Vermilion County Office             Danville, IL

Indiana State Office                Indianapolis, IN
    Montgomery County Office             Crawfordsville, IN
    Warren County Office                 Williamsport, IN
    White County Office                  Monticello, IN

Iowa State Office                   Des Moines, IA
    Cerro Gordo County Office           Mason City, IA
    Wapello County Office               Ottumwa, IA

Kansas State Office                 Manhattan, KS
   Crawford County Office              Girard, KS
   Washington County Office            Washington, KS

Montana State Office                Bozeman, MT
   Judith Basin County Office           Stanford, MT
   Roosevelt County Office              Culbertson, MT
   Sheridan County Office               Plentywood, MT
   Valley County Office                 Glasgow, MT




USDA/OIG-A/03601-47-Te                                                            Page 33
Exhibit C – Summary of Loans Reviewed
                                                                                                                              Exhibit C – Page 1 of 1




                            Number of
                            Bin-Stored                                                                 Outstanding Amount
         State                Loans                   On-Ground Stored Loans                                 of Loans
      Iowa                       20                             1                                         $ 2,910,070
      Kansas                    21                              1                                         $ 1,580,444
      Illinois                  18                              2                                         $ 2,586,486
      Indiana                   20                              4                                         $ 4,608,980
      Arkansas                  20                              0                                         $ 4,860,287
      Arizona                     0                             5                                         $ 522,791
      Montana                     0                             9                                         $ 697,950
      Totals                    99                            22 51                                       $17,767,008




51
     We performed a desk review of three additional crop year 2004 loans and premiums in Arizona amounting to $1.1 million.

USDA/OIG-A/03601-47-Te                                                                                                                     Page 34
Exhibit D – Summary of State-Established Maximum Acceptable
                               Moisture Levels
                                                                                                Exhibit D – Page 1 of 1

              State 52 53                    Corn Sorghum                      Soybeans                   Wheat
Standard set in
FSA Handbook 2-LP (Revision 1) 54                15.5                14                        14                     13.5
Alaska                                          N/A55               N/A                       N/A                     13.5
Arizona                                            35                35                       N/A                     N/A
Arkansas                                           24                20                        20                       20
California                                         29               N/A                       N/A                     N/A
Colorado                                           45                34                        24                      24
Connecticut                                      15.5                14                        13                     13.5
Georgia                                          15.5                14                        14                     13.5
Hawaii                                             25                20                        20                       20
Indiana                                            35                18                        20                      18
Iowa                                               45                45                        25                      25
Kansas                                             35                35                        20                     19.5
Kentucky                                           20                18                        17                       18
Louisiana                                          35                35                        20                     19.5
Maine                                            15.5                14                        14                     13.5
Massachusetts                                      35                30                        20                       18
Michigan                                           40               N/A                        25                       25
Minnesota                                          45                25                        25                       25
Mississippi                                        35                35                        22                       22
Missouri                                           35                35                        35                       35
Montana                                          16.5                15                        15                     14.5
Nebraska                                           30                20                        19                       20
Nevada                                           15.5                14                       N/A                     13.5
New Jersey                                         40                35                        35                       35
New York                                           35                30                        20                      18
North Carolina                                     30                30                        30                      30
North Dakota                                       30                20                        19                       20
Ohio                                               30                30                        30                      30
Oklahoma                                           35                35                        20                     19.5
Oregon                                            35                N/A                       N/A                     N/A
Pennsylvania                                       40                40                        24                       25
South Carolina                                     30                26                        20                      20
South Dakota                                       35                35                        20                      20
Texas                                              35                35                        20                     19.5
Utah                                             21.5                20                        20                     19.5
Vermont                                            35                35                        18                      18
West Virginia                                      30                25                       N/A                     N/A
Wisconsin                                          36                35                        22                       22
Wyoming                                            30                20                        19                      20



52
   Illinois and Tennessee reported that the State committee had not established any maximum moisture levels.
53
   The following States did not respond to FSA Price Support Division’s request: Alabama, Delaware, Florida, Idaho, Maryland, New Hampshire, New
Mexico, Rhode Island, Virginia, and Washington.
54
   Values represent the percentage of maximum eligible moisture for all four commodities.
55 N/A indicates no response was given by the States for that commodity.

USDA/OIG-A/03601-47-Te                                                                                                              Page 35
Exhibit E – Agency Response
                              Exhibit E – Page 1 of 5




USDA/OIG-A/03601-47-Te                     Page 36
                         Exhibit E – Page 2 of 5




USDA/OIG-A/03601-47-Te                  Page 37
                         Exhibit E – Page 3 of 5




USDA/OIG-A/03601-47-Te                  Page 38
                         Exhibit E – Page 4 of 5




USDA/OIG-A/03601-47-Te                  Page 39
                         Exhibit E – Page 5 of 5




USDA/OIG-A/03601-47-Te                  Page 40
